           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



          COMPLIANCE WITH
 DISABILITY DETERMINATION SERVICES
   SECURITY REVIEW REQUIREMENTS



    February 2008   A-05-07-17082




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      February 6, 2008                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Compliance with Disability Determination Services Security Review Requirements
           (A-05-07-17082)


           OBJECTIVE

           Our objectives were to assess (1) the Social Security Administration’s (SSA)
           procedures for selecting Disability Determination Services (DDS) offices for on-site
           Security Reviews, (2) SSA’s system for ensuring appropriate correction of deficiencies
           identified through Security Reviews, and (3) additional steps SSA can take to enhance
           the Security Review process.

           BACKGROUND
           SSA must comply with applicable Federal law1 associated with management controls
           and provide assurances that its financial, program and administrative processes are
           functioning as intended. SSA designed the Management Control Review (MCR)
           Program to satisfy such Federal requirements. The MCR Program is implemented at
           DDS offices using the DDS Security Self-Review Checklist. These reviews cover a
           number of systematic and physical security elements including (1) automated system
           security, (2) systems access, (3) perimeter and internal office security, and
           (4) emergency preparedness and disaster recovery.

           There are 52 DDSs located in the 50 States, the District of Columbia and Puerto Rico.
           Each DDS is required to have a Security Review conducted by the Center for Security
           and Integrity (CSI) at least once every 5 years. 2 The CSI in each region is required to
           develop and maintain a 5-year review plan for all DDSs in its respective region. The
           plan should include all DDS locations to be reviewed.




           1
               Federal Managers’ Financial Integrity Act of 1982, Public Law 97-255.
           2
            SSA, Program Operations Manual System (POMS), DI 39566.140 B.2.b., DDS Compliance and
           Monitoring Procedures.
Page 2 - The Commissioner


Most of the Security Reviews are conducted by CSI; however, SSA also uses
contractors to conduct Security Reviews on its behalf. In years when CSI does not
conduct a Security Review, the DDS offices are responsible for conducting a self-review
using the same criteria CSI uses for its Security Review. 3

When performing the Security Review, CSI follows SSA policy in POMS, 4 which
contains the DDS Security Self-Review Checklist. 5 Within 45 days of completing the
Security Review, CSI prepares a report that describes the deficiencies identified during
the review and provides recommendations to resolve the deficiencies. The report is
submitted to the regional Center for Disability Programs (CDP) with copies to the Office
of Disability Determinations and the Division of Financial Integrity. CDP provides the
Security Review report to the DDS office.

RESULTS OF REVIEW
Generally, we found SSA’s procedures were effective for selecting DDS offices for on-
site Security Reviews and ensuring correction of deficiencies identified through Security
Reviews. However, we found some improvements were needed. Specifically:

•     we identified 6 DDS offices did not undergo a Security Review during the 5-year
      period ended September 30, 2006;

•     6 of 32 DDS offices undergoing a Security Review during the 2-year period ended
      September 30, 2006 did not submit a corrective action plan (CAP) in accordance
      with SSA requirements; and

•     29 of 122 Security Review deficiencies at 5 of the 9 DDS offices we reviewed were
      not corrected at the time of our review.

We also identified some areas that should be included in the Security Review process.
Specifically, the DDS Security Self-Review Checklist could be more comprehensive,
covering additional topics such as protection of sensitive data as well as properly
securing computers and computer room doors.




3
    SSA, POMS DI 39566.140 B.1.b., DDS Compliance and Monitoring Procedures.
4
    SSA, POMS DI 39566, DDS Privacy and Security.
5
    SSA, POMS DI 39566.186, Security Self-Review Checklist – Exhibit 7.
Page 3 - The Commissioner


DISABILITY DETERMINATION SERVICES OFFICES NOT REVIEWED

During the 5-year period ended September 30, 2006, we found that a Security Review
was not conducted at six DDS offices in five regions. In Table 1, we identify the
locations and the reasons Security Reviews were not conducted.

                             Table 1: Security Reviews Not Conducted
                Office
    Region     Location                                        Status
      I      Waterbury,       CSI postponed the Security Review until 2007 because the DDS
              Vermont         office was undergoing electronic claims training in 2006.
      II      Endicott,       CSI considered a review conducted in 2004 by an independent
             New York1        contractor to be sufficient to meet the Security Review requirement.2
      V       St. Paul,       A Security Review was not conducted because regional policies
             Minnesota        prohibit travel to perform the reviews unless other work is to be
                              conducted at the same location. Since no other work was scheduled
                              at this location in Fiscal Year (FY) 2006, the year the Security
                              Review was originally scheduled, the review was postponed until FY
                              2007.
     VIII      Aurora,        CSI considered a review conducted in 2003 by an independent
              Colorado        contractor to be sufficient to meet the Security Review requirement.2
      IX      Tucson,         A Security Review was not conducted because regional policies
                      3
              Arizona         prohibit travel to perform the reviews unless other work is to be
                              conducted at the same location. Since no other work was scheduled
                              at this location in FY 2006, the year the Security Review was
                              originally scheduled, the review was postponed until FY 2007.
             Sacramento,      CSI established a 5-year review cycle that excluded the
              California      Sacramento, California DDS location from review. CSI plans to
               (Central       conduct the Security Review in 2007.
                         4
             Operations)
Note 1: The New York DDS is decentralized with offices in six locations.
Note 2: While the contractors in question reviewed security controls at selected DDS offices as a part of
the annual Financial Statement audit, they were not engaged in this instance to conduct Security Reviews
nor did they use the checklist that CSI uses for Security Reviews. Therefore, these reviews are not as
comprehensive and cannot be considered as replacements for CSI Security Reviews.
Note 3: The Arizona DDS is decentralized with offices in two locations.
Note 4: The California DDS is decentralized with offices in 14 locations.

For the six DDSs that did not conduct Security Reviews, we reviewed our prior DDS
administrative cost audits that assessed limited areas of the general security controls
environment. In these reports, we noted general security control vulnerabilities in such
areas as inventory controls, contingency plans, off-site storage for electronic backup
files, intrusion detection systems, perimeter access, and controls over computer
security. For example, at the Minnesota DDS, 6 we found issues related to the need to


6
 SSA Office of the Inspector General, Administrative Costs Claimed by the Minnesota Disability
Determination Services (A-05-04-14036), page 3, September 2004.
Page 4 - The Commissioner


•     finalize a contingency plan;
•     identify an off-site storage facility for electronic data backup files; and
•     review perimeter security.

Had our audit of the Minnesota DDS office not been performed, these previously
identified security-related deficiencies could have gone undetected and even resulted in
the loss or compromise of sensitive data. For this reason, we believe CSI should
ensure all DDS offices are reviewed every 5 years or provide written justification if
Security Reviews will not be performed.

CORRECTIVE ACTION PLAN

We found that 6 of 32 DDS offices (19 percent) undergoing a Security Review during
the 2-year period ended September 30, 2006 did not submit a CAP in accordance with
SSA requirements. Five of the DDS offices were late in submitting their CAPs, and the
remaining DDS office has yet to submit a CAP.

The DDS is responsible for developing a CAP to address the deficiencies identified in
the Security Review report. The CAP should be submitted to CDP within 45 days of the
Security Review report’s issuance date. CDP provides the CAP to CSI. Both CDP and
                                                                       7
CSI monitor the corrective actions until all weakness are corrected. If a CAP is not
submitted as required, there is a risk that deficiencies identified during Security Reviews
will not be corrected, thereby allowing unauthorized access to sensitive SSA
information. For this reason, SSA should instruct CDPs and CSIs to obtain CAPs that
address all deficiencies identified during Security Reviews within the 45-day timeframe
from all DDS offices.

Late Corrective Action Plans

We reviewed 32 DDS Security Review reports that were conducted in FYs 2005 and
2006, and found that CSIs issued all the reports within 45 days of the Security Review
or soon thereafter. We also found most of the DDS offices submitted a CAP to address
the Security Review deficiencies within 45 days of the Security Review report’s
issuance date. However, we found that five DDS offices in three regions did not submit
a CAP to the regional CDP within 45 days of the Security Review, as shown in Table 2.




7
    SSA, POMS, DI 39566.140 B.2.f., DDS Compliance and Monitoring Procedures.
Page 5 - The Commissioner


                   Table 2: DDS Offices That Did Not Submit Timely CAPs
                                                                             Date of
                          Office                  Security Review          Corrective           Days
    Region               Location                   Report Date            Action Plan          Late
       I       Concord, New Hampshire                 3/29/06                6/21/06             39
      III           Washington,                       6/20/06                3/01/07             209
                 District of Columbia
      IX        Sacramento, California                2/24/06                5/18/06             38
                 Roseville, California                2/24/06                5/10/06             30
                 Carson City, Nevada                  5/04/05                7/18/05             30

In Region III, we found the CDP did not effectively monitor receipt of the CAP from the
District of Columbia DDS. While the Security Review was conducted in May 2006, the
CAP was not submitted to CDP until March 2007. When asked about the delay, CDP
staff stated this occurred because the DDS Director’s attention was focused on the
conversion to the electronic claims process and a construction project at the DDS.
While we understand CAPs can be delayed because of competing priorities, 209 days
is an unreasonable delay. The new Disability Program Administrator in the Region III
CDP, assigned to monitor the District of Columbia DDS in January 2007, was not aware
the CAP had not been submitted for the 2006 Security Review. When we inquired
about the CAP, the DDS was contacted and the CAP was provided.

Missing Corrective Action Plan

In our review of the 32 DDS Security Reviews, we found that the Ohio DDS did not
submit a CAP to the Region V CDP following its Security Review. As noted earlier, the
DDS is responsible for developing a CAP to address the deficiencies identified in the
Security Review. In addition to not obtaining a CAP for the Ohio DDS, we found the
Region V CSI only required that the DDSs in its region take corrective action for
                                       8
sensitive data access deficiencies. SSA policy states that its standards for protecting
the DDS facilities are discretionary. 9 Furthermore, the deficiencies identified during
DDS Security Reviews addressed physical security, and the Region V CSI considered
recommendations that address physical security deficiencies as suggestions that do not
require corrective action. 10 Therefore, the CSI left it to the Ohio DDS’ discretion to
determine whether corrective action should be taken on physical security deficiencies.
We believe SSA should consider revising its discretionary standards for protecting DDS
facilities so that CAPs address all deficiencies identified during Security Reviews, even
if the DDS position is that it will take no corrective action.



8
  Region V CSI staff stated that they only expected responses from the DDS offices for deficiencies
regarding systems issues or inappropriate profile assignments.
9
    SSA, POMS, DI 39566.010 A., Disability Determination Services Physical Security.
10
 Although not required by Region V CSI, the Indiana and Michigan DDSs did submit CAPs to Region V
CDP on their own initiative.
Page 6 - The Commissioner


SSA policy also instructs DDSs that are unable to meet a guideline for physical security
to prepare a risk assessment plan to determine whether some or all of the discretionary
                                                        11
measures should be included in their security program. In its Security Review of the
Ohio DDS office, the Region V CSI recommended corrective actions to address
deficiencies found with (1) open shredder bins that contained sensitive information,
such as earnings, dates of birth and social security numbers; (2) cases left on desks
and cabinets overnight; and (3) after-hours cleaning. The Security Review report also
reflects that CSI reminded the Ohio DDS to prepare a risk assessment. Additionally,
the Region V CSI informed us that it had plans to request the DDSs in the region to
perform a risk assessment on physical security deficiencies.

DEFICIENCIES NOT CORRECTED

We found 29 of 122 deficiencies (24 percent) at 5 of the 9 DDSs we reviewed had not
                                    12
been corrected as of February 2007. Specifically, 20 of the unresolved deficiencies
were identified in FY 2005, and 9 were identified in FY 2006. The deficiencies were in
the areas of systems access, perimeter and internal office security, incident reporting,
and emergency preparedness and recovery.

The DDSs initiated corrective action for nine deficiencies identified during the Security
Reviews. However, the completion of corrective actions was delayed for six of the nine
deficiencies because the DDSs were located in facilities that were controlled by State or
private property managers (see Table 3). Therefore, the DDSs were required to obtain
approval to make modifications necessary to correct the deficiencies identified during
the Security Reviews. In addition, completion was delayed for three deficiencies
because the DDSs had to seek guidance from SSA.

                       Table 3: Corrective Actions Initiated but Delayed
                                   Date         Delayed Actions     Delayed Actions
                                 Security       Due to DDS in a       While DDS
                                 Review          State/Private      Awaits Guidance     Total Delayed
 Region          Location       Performed           Facility           from SSA            Actions
      III       Roanoke,         February               1                                     1
                 Virginia         2005
      VI      Albuquerque,      March 2005              1                   1                 2
              New Mexico        March 2006              2                   2                 4
      IX      Carson City,         May                  2                                     2
                 Nevada           2005
 Total                                                  6                   3                 9

For the remaining 20 deficiencies identified during the Security Reviews, the DDSs
indicated that corrective action was not planned. As shown in Table 4, corrective

11
     SSA, POMS, DI 39566.010 A., Disability Determination Services Physical Security.
12
  The 122 deficiencies were identified during Security Reviews conducted at 9 DDSs in 9 regions in FYs
2005 and 2006. We did not visit Region II because there were few deficiencies reported at the Region’s
DDSs.
Page 7 - The Commissioner


actions were not planned for 17 of the 20 deficiencies because the DDSs considered
alternative controls were in place that were sufficient to ensure employees sensitive
data and equipment were protected. Also, corrective actions were not planned for
two deficiencies because the DDS did not consider it necessary since the DDS was
planning to relocate the office. Additionally, one deficiency was not corrected because
the DDS was not aware of SSA’s retention requirements and did not consider corrective
action necessary because it could rely on its Regional Office to provide documents not
retained at the DDS.
                       Table 4: Corrective Actions Not Planned
                                  Date
                                Security       Number of
                                Review         Corrective          Reason Corrective Action is Not
     Region     Location       Performed        Actions                      Planned
       III      Roanoke,        February            2         Relocation of DDS office planned.
                 Virginia         2005
       IV       Raleigh,       September            5         DDS office stated it had alternative
                  North           2006                        controls.
                Carolina
       VI     Albuquerque,       March              1         DDS office was unaware of retention
              New Mexico         2005                         requirements.
      VII       St. Louis      September            8         DDS office stated it had alternative
                 (North),        2005                         controls.
                Missouri
       IX     Carson City,        May               4         DDS office stated it had alternative
                 Nevada           2005                        controls.
      Total                                         20

SSA policy stipulates both CDP and CSI will monitor the corrective actions until all
weaknesses are corrected. 13 Joint responsibility is assigned because many of the
actions necessary to accomplish corrective action involve both CSI and CDP. 14
However, the policy does not specify what duties each component is to perform in the
monitoring process. We believe the lack of specific responsibilities for each component
may create a risk that effective monitoring might not occur. SSA officials informed us
that they are developing an automated system for the DDS Security Reviews that
should alleviate the uncertainty about each regional component’s responsibilities to
monitor corrective actions and whether corrective actions have been taken.




13
     SSA, POMS, DI 39566.140 B.2.f., DDS Compliance and Monitoring Procedures.
14
  CDP has overall responsibility for the DDSs, and CSI has responsibility for oversight/monitoring of
security.
Page 8 - The Commissioner


Also, SSA policy does not require that CDP or CSI ensure DDS offices implement
corrective actions within a specific timeframe. However, we found that SSA field
       15                                                    16
offices and the Office of Disability Adjudication and Review are required to validate
that corrective actions have been implemented within 90 days.

If deficiencies identified during Security Reviews are not resolved, there is a risk of
unauthorized access to sensitive SSA information if DDS or SSA systems are
compromised. Further, for the deficiencies related to the lack of Continuity of
Operations Plans and Disaster Recovery Plans, a DDS may not be able to recover
timely if a disaster impacts its facility. We believe SSA should clearly define the
responsibilities, by component, for monitoring the progress of corrective actions taken
on deficiencies identified during DDS Security Reviews to minimize risk to SSA and
DDS information and systems. Establishing specific timeframes, such as 90-day
intervals, for CDPs to contact DDS offices and validate that corrective actions have
been implemented on all deficiencies identified during Security Reviews would ensure
more timely resolution. As part of this resolution process, we believe SSA still needs to
follow up on corrective actions for the 29 deficiencies we identified as unresolved to
determine whether corrective actions are necessary.

UPDATE CHECKLIST FOR ADDITIONAL SECURITY CONCERNS

The DDS Security Self-Review Checklist that is used during the Security Review
process did not address the new security concerns for protecting personally identifiable
information (PII). Specifically, the checklist did not require that CSI determine whether
laptop computers and related storage media are properly secured. A June 2006
message from the Chief Information Officer to all SSA employees, contractors and DDS
employees gave examples of failures to protect PII, including “leaving an unprotected
computer containing SSA information in a non-secure space” and “storing electronic
files containing SSA information on a computer, flash drive, compact disc, etc. that
other people can access.”




15
  After a field office has received a final report on the findings and recommendations for corrective action,
the field office manager has 45 days to develop a CAP to address any deficiencies noted in the final
report. Also, the Area Director for the field office must validate the CAP within 90 days of receipt. For
more information on the field office process, see our September 2007 audit, Compliance with Onsite
Security Control and Audit Review Requirements at Field Offices (A-02-07-27021), page 2.
16
   After a hearing office has received an Onsite Security Control and Audit Review report, the hearing office
manager has 30 calendar days to respond (either directly or through its regional office) with a report of the
corrective actions planned and/or taken. Also, the office should forward, within 90 days of issuing the
corrective action report, a validation report stating that corrective actions have been implemented. For more
information on the hearing office process, see our September 2007 audit, Onsite Security Control and Audit
Review at Hearing Offices (A-12-07-17080), page 2.
Page 9 - The Commissioner


Also, the DDS Security Self-Review Checklist did not require that CSI address the
following POMS security requirements.

•
                                                        17,18
      The computer room door is solid wood core.
•     Users lock or logoff the workstation or terminal prior to leaving it unattended. 19

Such security weaknesses could result in a possible risk of unauthorized disclosure of
sensitive SSA data as well as the loss of system hardware and software. SSA should
update the DDS Security Self-Review Checklist to make it consistent with recent PII
guidance and POMS security requirements.

CONCLUSION AND RECOMMENDATIONS
While we found the Security Review process for the DDS offices to be generally
effective in both selecting DDSs for review and correcting identified deficiencies,
improvements can be made to the Security Review process. We recommend SSA:

1. Ensure that regional CSIs review all DDS offices every 5 years or provide written
   justification if Security Reviews will not be performed.

2. Instruct regional CDPs and CSIs to obtain CAPs that address all deficiencies
   identified during Security Reviews within the 45-day timeframe from all DDS offices.

3. Consider revising the Agency’s discretionary standards for protecting DDS facilities
   so that CAPs address all deficiencies identified during Security Reviews, even if the
   DDS position is that it will take no corrective action.

4. Clearly define the responsibilities, by component, for monitoring the progress of
   corrective actions taken on deficiencies identified during Security Reviews.

5. Establish specific timeframes, such as 90-day intervals, for CDPs to contact DDS
   offices and validate that corrective actions have been implemented on all
   deficiencies identified during Security Reviews.

6. Follow up on the 29 deficiencies we identified as unresolved to determine if
   corrective actions are necessary.

7. Update the DDS Security Self-Review Checklist to make it consistent with recent PII
   guidance and POMS security requirements.

17
     SSA, POMS, DI 39566.010 B.2.I., DDS Physical Security.
18
  Although the DDS Security Self-Review Checklist did not include a requirement to check with
construction material of the computer room door, Region VII CSI noted that the computer room doors at
the Missouri DDS did not meet the standards identified in POMS.
19
     SSA, POMS, DI 39566.001 C.14.b., Scope of Privacy and Security Subchapter.
Page 10 - The Commissioner


AGENCY COMMENTS
SSA generally agreed with six of the seven recommendations and has begun taking
corrective actions where possible (see Appendix C). However, SSA disagreed with our
recommendation to consider revising the Agency’s discretionary standards for
protecting DDS facilities.

OIG RESPONSE

We agree with SSA that the intent of its DDS security policy is that CAPs should
address all deficiencies identified during Security Reviews. For this reason, we still
believe that SSA should consider revising its discretionary standards for protecting DDS
facilities so that CAPs address all deficiencies identified during Security Reviews.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
CAP    Corrective Action Plan
CDP    Center for Disability Programs
CSI    Center for Security and Integrity
DDS    Disability Determination Services
DRP    Disaster Recovery Plan
FY     Fiscal Year
IDS    Intrusion Detection System
MCR    Management Control Review
PII    Personally Identifiable Information
POMS   Program Operations Manual System
SSA    Social Security Administration
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

•     Reviewed the Social Security Administration’s (SSA) Management Control Review
      Program and related Federal requirements.
•     Reviewed SSA policy and procedures, as well as prior Office of the Inspector
      General audits and other independent reviews, related to system and physical
      security at Disability Determination Services (DDS) offices.
•     Contacted Center for Security and Integrity (CSI) staff in each of the 10 SSA
      regional offices to determine their methodology for selecting DDS offices for
      Security Reviews.
•     Obtained data from CSI staff in each region to determine whether the DDSs were
      being reviewed in accordance with SSA’s policies and procedures. We identified
      89 Security Reviews conducted from October 1, 2001 through September 30,
            1
      2006.
•     Reviewed 32 Security Review reports issued from October 1, 2004 through
      September 30, 2006 to determine whether (1) CSI issued the report within 45 days
      from the date of the review and (2) the DDS provided a Corrective Action Plan within
      required 45 days.
•     Reviewed the Security Reviews conducted between October 1, 2004 and
      September 30, 2006 and identified 225 deficiencies. We selected Security Reviews
                                                         2
      conducted at 9 DDS offices with 122 deficiencies. We contacted relevant DDS/CSI
      personnel to verify appropriate corrective actions occurred.
•     Reviewed the DDS Security Self-Review Checklist and solicited ideas from CSI and
      other SSA staff to identify additional steps SSA can take to enhance the Security
      Review process.

We found data used for this audit were sufficiently reliable to meet our objectives. The
entities audited were SSA’s Center for Security and Integrity and the Office of Disability
Determinations, both under the Deputy Commissioner for Operations. We performed
our audit in Kansas City, Missouri, and Chicago, Illinois, between October 2006 and
August 2007 in accordance with generally accepted government auditing standards.



1
    There are 52 DDSs; however, several states have multiple DDS sites.
2
 We did not select a Security Review from Region II because there were few deficiencies reported in the
Region’s DDSs.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      January 15, 2008                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Compliance with Disability Determination
           Services Security Review Requirements” (A-05-07-17082)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "COMPLIANCE WITH DISABILITY DETERMINATION SERVICES
SECURITY REVIEW REQUIREMENTS” (A-05-07-17082)


Thank you for the opportunity to review and provide comments on this draft report. We note that
you generally found our procedures effective for selecting Disability Determination Services
(DDS) offices and that we ensure correction of deficiencies that are identified through the
security reviews. The draft report made suggested improvements to the security review process.
For the most part, we agree with the recommendations, and have already begun taking corrective
actions, where possible. However, several of the recommendations may require a change in
policy and will involve more in-depth discussions before final decisions can be made.

Our responses to the specific recommendations are provided below:

Recommendation 1

Ensure that regional Centers for Security and Integrity (CSI) review all DDS offices every 5 years
or provide written justification if Security Reviews will not be performed.

Comment

We agree. On December 28, 2007, we issued reminders to the CSIs to ensure that, where
possible all DDSs are reviewed within the 5-year period. We also reminded them of the need for
written justification when a review will not be performed.

Recommendation 2

Instruct regional Centers for Disability Programs (CDP) and CSIs to obtain corrective action
plans (CAPs) that address all deficiencies identified during Security Reviews within the 45-day
timeframe from all DDS offices.

Comment

We agree with the intent of the recommendation. The intent of the DDS security Program
Operations Manual System (POMS) is that the CAPs should address all deficiencies identified
during the review. Our POMS currently instructs the DDS to submit their CAPs to the regional
office within 45 days after completion of the security review. The regional office is responsible
for working with the DDSs to ensure that the CAP addresses all of the deficiencies. We will
consider updating our POMS to emphasize the regional office oversight responsibilities.




                                               C-2
Recommendation 3

Consider revising the Agency’s discretionary standards for protecting DDS facilities so that
CAPs address all deficiencies identified during Security Reviews, even if the DDS position is
that it will take no corrective action.

Comment

We disagree. Some areas of POMS provide discretionary guidelines based on regulations found
in 20 C.F.R. (Subpart Q). These regulations outline the basic responsibilities for SSA and the
State.

Where a potential deficiency is cited that falls under the discretionary guidelines of POMS, we
instruct the DDS to conduct a risk assessment to determine appropriate corrective action. The
results of the risk assessment are considered part of the site's CAP. The regional CDP reviews
the risk assessment to determine final outcome. Depending on the specific circumstances, the
regional office may consult with the Office of Disability Determinations on whether the issue can
be considered closed.

Recommendation 4

Clearly define the responsibilities, by component, for monitoring the progress of corrective
actions taken on deficiencies identified during Security Reviews.

Comment

We agree with the intent of the recommendation. We will consider revising the DDS security
POMS to clearly delineate the regional office oversight responsibilities. The draft POMS will
need to be reviewed by the regional office and appropriate headquarters components for
concurrence before implementing.

Recommendation 5

Establish specific timeframes, such as 90-day intervals, for CDPs to contact DDS offices and
validate that corrective actions have been implemented on all deficiencies identified during
Security Reviews.

Comment

We agree. We will revise the DDS security POMS to include instructions for providing follow-
ups at 90-day intervals until all deficiencies have been addressed or risk assessments have been
conducted and agreed on as an appropriate course of action.




                                               C-3
Recommendation 6

Follow up on the 29 deficiencies we identified as unresolved to determine if corrective actions
are necessary.

Comment

We agree. We have reviewed the 29 deficiencies and provided an update for each one. All of
the deficiencies cited have been addressed and resolved and are now considered closed. A copy
of the corrective actions has been provided under separate cover.

Recommendation 7

Update the DDS Security Self-Review Checklist to make it consistent with recent Personal
Identifying Information (PII) guidance and POMS security requirements.

Comment

We agree. We will revise the DDS Security Self-Review Checklist to include current security
guidance.




                                               C-4
                                                                     Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division (312) 353-0331

   Shannon Agee, Audit Manager, Kansas City Audit Division (816) 936-5590

Acknowledgments

In addition to those named above:

   Tonya Coffelt, Senior Auditor

   Elizabeth Juárez, Senior Auditor

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-05-07-17082.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
